1a
[SEAL]
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-85,833-01
EX PARTE EDWARD GEORGE MCGREGOR,
Applicant
ON APPLICATION FOR A
WRIT OF HABEAS CORPUS
FROM FORT BEND COUNTY
KEEL, J., delivered the opinion of the Court
in which KELLER, P.J., and KEASLER, HERVEY, RICHARDSON, and SLAUGHTER, JJ., joined. WALKER, J.,
concurred. YEARY and NEWELL, JJ., did not participate.
OPINION
Applicant was convicted of capital murder and
sentenced to life in prison. He seeks relief from his
conviction by way of an application for writ of habeas
corpus raising five issues. The convicting court recommended that relief be granted on the first two issues.
These alleged that the State failed to disclose benefits
it promised to three witnesses, the three witnesses
falsely denied the promised benefits, and one of the
witnesses gave false substantive testimony. We filed
and set the case to consider those two issues. We decline to follow the convicting court’s recommendation

2a
in favor of relief on issues one and two because disclosure was made, falsity was not proven, or the undisclosed or false evidence was not material. Issues three
and four lack merit, and issue five is moot. Consequently, we deny relief.
Habeas Review
In habeas review, we generally defer to the convicting court’s findings that are supported by the record, and findings about whether a witness testified
falsely are reviewed under a deferential standard. Ex
parte Weinstein, 421 S.W.3d 656, 664 (Tex. Crim. App.
2014). But this Court is the ultimate fact finder in habeas proceedings. Ex parte Chavez, 371 S.W.3d 200, 207
(Tex. Crim. App. 2012). If the record shows that the
convicting court’s findings and conclusions are not supported by the record, we “will proceed cautiously with
a view toward exercising our own judgment.” Ex parte
Reed, 271 S.W.3d 698, 727 (Tex. Crim. App. 2008).
Moreover, we will decline to follow the trial court’s findings when doing so would “improperly circumvent the
jury’s role in assessing the credibility of witness testimony and resolving the inconsistencies in the evidence
presented at trial.” Ex parte De La Cruz, 466 S.W.3d
855, 867 (Tex. Crim. App. 2015).
Materiality is a legal question that we review de
novo. Id. at 866 (false evidence claim); United States
v. Bagley, 473 U.S. 667, 683 (1985) (reviewing court
should assess materiality in a Brady claim in light of
the totality of the circumstances); Ex parte Brandley,

3a
781 S.W.2d 886, 917 n.3 (Tex. Crim. App. 1989) (Campbell, J., dissenting) (materiality in a Brady claim is an
issue for us to decide de novo).
Brady Claims
Due process is violated when the State suppresses
material evidence that is favorable to the defense.
Brady v. Maryland, 373 U.S. 83, 87 (1963). Favorable
evidence includes impeachment evidence. United States
v. Bagley, 473 U.S. 667, 676 (1985); Ex parte Chaney,
563 S.W.3d 239, 266 (2018). Inducements to testify
must be disclosed. Giglio v. United States, 405 U.S. 150,
155 (1972). Determining the existence of an inducement
depends on whether the evidence “tends to confirm rather than refute the existence of some understanding
for leniency.” Duggan v. State, 778 S.W.2d 465, 468
(Tex. Crim. App. 1989), quoting Giglio, 405 U.S. at 153
n. 4. The understanding need not be explicit. Duggan,
778 S.W.2d at 468.
Suppressed favorable evidence is material “if
there is a reasonable probability that, had the evidence
been disclosed to the defense, the result of the proceeding would have been different.” Bagley, 473 U.S. at 682.
“A ‘reasonable probability’ is a probability sufficient
to undermine confidence in the outcome.” Id. To determine materiality, we balance exculpatory evidence
against the evidence supporting the conviction. Ex
parte Miles, 359 S.W.3d 647, 666 (Tex. Crim. App.
2012). The favorable evidence “must be evaluated in
the context of the entire record.” United States v. Agurs,

4a
427 U.S. 97, 112 (1976). If the exculpatory “evidence
creates a reasonable doubt that did not otherwise exist, constitutional error has been committed.” Id.
The materiality of favorable evidence does not depend on proof that its disclosure would have yielded an
acquittal. Kyles v. Whitley, 514 U.S. 419, 434 (1995). It
is not a test of evidentiary sufficiency. Id. Nor is it a
question of “whether the State would have had a case
to go to the jury if it had disclosed the favorable evidence.” Id. at 453. Instead, the question is whether,
considering the suppressed evidence “collectively, not
item by item,” id. at 436, “we can be confident that the
jury’s verdict would have been the same.” Id. at 453.
Under this standard, a claimant can prevail even if
“the undisclosed information may not have affected the
jury’s verdict.” Wearry v. Cain, ___ U.S. ___, 136 S.Ct.
1002, 1006 n.6 (2016) (per curiam). “And it is important
to consider how disclosure could have affected defense
preparation, with an awareness of the difficulty of
post-trial reconstruction.” Pena v. State, 353 S.W.3d
797, 812 (Tex. Crim. App. 2011).
Withheld impeachment evidence may not be material if the State’s other evidence is strong enough to
sustain confidence in the verdict. Smith v. Cain, 565
U.S. 73, 76 (2012). Withheld impeachment evidence
also may not be material if it is cumulative of evidence
on the same topic and heard by the jury. Turner v.
United States, ___ U.S. ___, 137 S.Ct. 1885, 1895 (2017).
But withheld impeachment evidence is not immaterial
just because a witness was impeached with other

5a
evidence on other matters. Id.; Wearry, 136 S.Ct. at
1006-07.
False Evidence Claims
Due process is violated by the State’s use of material false evidence to secure a conviction. Giglio, 405
U.S. at 155 (Giglio entitled to a new trial for accomplice’s false denial of the government’s promise not to
prosecute him in exchange for his testimony); Napue v.
Illinois, 360 U.S. 264, 269-70 (1959) (Napue entitled to
a new trial because of accomplice’s false testimony that
he had not been promised a reduced sentence in exchange for his testimony). For a habeas applicant to
prevail on a false evidence claim, the evidence must be
both false and material. Weinstein, 421 S.W.3d at 665.
To evaluate falseness, we examine whether the
testimony taken as a whole gave the jury a false impression. Weinstein, 421 S.W.3d at 666. “[D]efinitive
or highly persuasive evidence introduced in a postconviction habeas proceeding may show by a preponderance of the evidence that testimony used to obtain
a conviction was false.” De La Cruz, 466 S.W.3d at 867.
But “circumstances that were presented to the jury in
support of applicant’s defensive theory and were reconciled against him at trial” will not serve as an adequate basis to hold that the witness’s testimony was
false. Id. at 869-70.
When a habeas applicant shows that the State
knowingly used false evidence and that claim could
not have been raised on direct appeal, the evidence is

6a
material unless we are convinced beyond a reasonable
doubt that the false evidence did not contribute to the
verdict. Ghahremani, 332 S.W.3d at 478. However, if
the State unknowingly presented false evidence at
trial, a habeas applicant must show by a preponderance of the evidence that the false evidence contributed to his conviction or sentence. Ex parte Chabot, 300
S.W.3d 768, 771 (Tex. Crim. App. 2009). We evaluate
the materiality of evidence cumulatively rather than
considering each piece of evidence in isolation. Wearry,
136 S.Ct. at 1007 (citing Kyles, 514 U.S. at 441).
Because Applicant’s Brady claims are co-extensive
with his false testimony claims, we will analyze materiality using the false testimony standard, which is
more favorable to Applicant. Ghahremani, 332 S.W.3d
at 477.
Background
In this fact-intensive case we will include only a
short summary of the facts relevant to the habeas
claims. For a more detailed description of the facts see
McGregor v. State, 394 S.W.3d 90 (Tex. App.—Houston
[1st Dist.] 2012).
The Issues
Applicant was prosecuted in 2010 for the 1990
capital murder of Kimberly Wildman. The prosecution
was a joint effort of the district attorney’s offices of Fort
Bend and Harris Counties. Applicant’s Brady and false

7a
evidence allegations center on three witnesses presented for the State by Harris County assistant district attorney Elizabeth Shipley. Two of the witnesses,
Marvin Paxton (“Paxton”) and Adam Osani (“Osani”),
testified to incriminating statements that Applicant
made to them while they were housed together in the
Harris County jail in 2007-08. The third witness, Delores Lee, also known as Delores Gable (“Delores”), testified that she was Applicant’s neighbor in 1990 and
overheard him admit on the night of Wildman’s murder that he was her killer.
The convicting court concluded that all three witnesses falsely denied that benefits were promised to
them. It also concluded that Delores testified falsely
about her biography and the things she observed on
the night of Wildman’s killing. The convicting court did
not explicitly find that Delores testified falsely about
having overheard Applicant’s admission that he killed
Wildman, but such a finding is implied by its findings
that she lied about her biography and her observations
on the night of the murder.
State’s Case-in-Chief
Wildman’s Death
Wildman lived in a house at 1419 Whispering
Pine, across the cul-de-sac from the McGregor family,
who lived at 1411 Whispering Pine.1 At 11:45 pm on
1

In the record the street name is sometimes pluralized, i.e.,
“Whispering Pines,” but this opinion will use the singular form.

8a
April 17, 1990, she called 911 from her home and reported that a black man had attacked her. Responding
to the call, Missouri City police officer Loyd Weathers
found the front door open and Wildman on the kitchen
floor; she was nude, writhing in pain, and saying, “Help
me, I’m dying.” She had many stab wounds on her arms
and a bone-deep defensive cutting wound to her left
hand. Wildman told Weathers that her attacker was a
black man whom she did not know. Life Flight took her
from the scene.
In Wildman’s upstairs bedroom police found evidence of a violent struggle. There was no evidence of
theft, and no useful prints were recovered from the
house, but an apparent point of entry was noted at a
side window. Documents found in her house suggested
that Wildman either was or wanted to become a topless
dancer. Police pursued leads on several possible suspects, but none were fruitful.
Wildman’s autopsy revealed that she died of two
stab wounds to the back. Her vaginal and anal swabs
yielded spermatozoa which, 16 years later, were found
consistent with Applicant’s DNA profile.
Delores
Delores testified that in 1990 she lived at 1719
Tower Grove Court at the corner of Whispering Pine
with her husband Brian Gable (“Brian”) and her children. Wildman lived across the street and four doors
down. Delores was acquainted with Wildman and the
McGregor family, and Applicant was close to Brian.

9a
On the night of Wildman’s death, Delores arrived
home with Brian and her children at about 8 p.m. and
saw neighbors outside and the police at Wildman’s
house. There were sirens, flashing lights and a helicopter. While Delores and Brian were outside, Applicant
came over and told Brian that he had “got into it with
the lady,” and they had had a scuffle; though he had
not meant to do so, he killed her. Applicant had a fresh
cut on his lip that night. Delores identified him in court
and remembered him from the scar over his lip.2
In 2006 Delores was prompted by a news report
about Applicant to write to Fort Bend County District
Attorney Michael Elliott offering information about
the Wildman case. Elliott did not respond to her letter,
but FBI Agent Glenn Gregory eventually did.
Delores testified that neither Shipley nor Gregory
ever promised her anything in exchange for her testimony. Because she was incarcerated, she did not want
to testify against Applicant and was concerned about
her safety, but she wanted “to do the right thing.” On
cross examination she denied having asked the prosecution for any help with parole.
Extraneous Offense: Murder of Edwina Barnum
Barnum’s Death
On May 25, 1994, Houston police were called to the
apartment of Edwina Barnum, who worked as a dancer
at Foxy’s strip club and as a prostitute. They found the
2

Brian died before Applicant became a suspect.

10a
door to her apartment kicked in and her fully clothed
body on the bedroom floor. A bloody knife wrapped in a
place mat lay beside her. Her hands were bound behind
her back with a bootlace; a belt was twisted tightly
around her neck; and a pillow covered her head. The
pillow bore a bullet hole burned by muzzle flash, and a
bullet casing was inside the pillow. No gun was found
in the apartment. The bed sheets were partly off the
bed, twisted around and under Barnum’s leg, and a
used condom, lighter, and ashtray were later discovered among the sheets. The condom was positive for semen, and Applicant’s and Barnum’s DNA profiles were
later found on the condom, but there was no evidence
of a sexual assault.
Barnum suffered three fatal assaults: the ligature
around her neck, the stab wound to her back and the
gunshot wound to her head.
Chane Spencer
Spencer and Barnum became friends when they
worked together as dancers at Foxy’s. They often car
pooled to and from work, but on the day of her death,
Barnum was nowhere to be found when it was time to
go home. At 3 a.m., Barnum called Spencer and asked
for a ride from a gas station; she sounded hysterical,
frantic, and frightened. Spencer found her crying, disheveled, and intoxicated, and took her home and
stayed with her for about half an hour. Spencer called
later to check on her, but Barnum hung up abruptly.
Spencer learned of Barnum’s death later that night.

11a
Spencer testified that in 1994 Applicant frequented
Foxy’s, always wearing his UPS uniform and usually
with fellow UPS workers.
Monique Johnson
Monique Johnson testified that Applicant and
Barnum ran in the same social circle and saw each
other at parties at Kevin Wilson’s home from 1990 to
1994. Applicant would flirt with Barnum, but she was
not interested in him.
Roy Swainson
Roy Swainson, a Houston Police Department homicide detective, testified that in his post-arrest interview, Applicant denied knowing Barnum and did not
recognize her when shown her picture.
Osani
In 2007-08, Osani was in the Harris County jail for
felony family violence when he met Paxton and Applicant. Applicant would make sexually suggestive and
threatening remarks to Osani, and on one such occasion Paxton told Applicant to leave Osani alone. Applicant responded by reaching through the bars to try to
get at Paxton and saying, “Bitch, I’ll kill you like I did
those other two bitches, mother fucker.”
Applicant warmed up to Osani, however, after he
overheard him talking about having visited the Harris
County Medical Examiner’s Office where his friend

12a
worked. Applicant asked Osani if his friend would be
able to collect DNA evidence and if he had “jurisdiction” in Fort Bend County.
Paxton
While charged with five cases of aggravated robbery, Paxton was housed in the Harris County jail in
2007-08 with Applicant and Osani. Applicant would
bully Osani, and Paxton once intervened. Applicant
told Paxton to shut his fucking mouth “before I kill you
like I did those two bitches.” When Applicant later
apologized to him, Paxton asked if he had been “for
real,” and Applicant said, “Oh, yeah, I did it.” He explained that he had lost his cool and killed those two
females whom he had “fucked.”
Defense Case
McGregor Family
Applicant’s mother, aunt, and brother testified that
the McGregor family, absent the father, moved to 1411
Whispering Pine in 1989. They exchanged pleasantries
with Wildman, who stood out in the neighborhood because of the skimpy clothes she wore. Applicant’s
brother, Tesfa, testified that Applicant was home all evening on the night of the Wildman murder. At around
11 p.m., Applicant yelled that there was someone in
the backyard and the family went outside. Applicant’s
mother, Sonia, said she and her three3 children stood
3

Applicant had a sister who was killed in 2004.

13a
in their driveway. Applicant stayed on the driveway
with the rest of the family and did not go to a house at
the corner of Tower Grove, and no one talked to them
while they were out there. Applicant had no scrapes,
cuts, or blood on him that night, and they never knew
Brian or Delores. Sonia and Applicant’s aunt, Margaret Reid, said Applicant got the scar on his lip in 1992.
Applicant
Applicant testified that one day Wildman invited
him into her house where they flirted and kissed. The
second time he went to her house, they had sex. On the
night she was killed, Applicant went to her house at
about 6:30 p.m., and they had sex again. Afterward she
told him that he had to go because someone was coming by. He left before sundown, and she was uninjured
at that point.
Applicant later saw police in the backyard, and he,
his mother, and brother all went outside. He stayed in
the driveway with his family. He did not go to another
house. The circle was filled with emergency vehicles,
and other traffic could not enter. He never saw Delores
Lee Gable until she testified, and his father was not
home that night.
Applicant would go to parties at Kevin Wilson’s
house in 1990. He met Barnum there and knew her as
“Nina.” In spring 1994 he had a girlfriend who worked
at Foxy’s, and he took her to and from work every day.
One time after a fight with his girlfriend, Applicant
gave Barnum a ride home, and they had sex. In 1995

14a
he started working for UPS, and he was a Foxy’s customer from 1996-98.
Applicant was arrested for Wildman’s murder on
May 1, 2006. In his interview with HPD homicide detective Jim Binford he denied knowing Kimberly Wildman because he did not recognize the name, and he
was scared. When Binford tried to show him pictures
of Wildman, Applicant refused to look at them. Eventually he realized that Binford was talking about his
neighbor, but he continued to deny knowing her because “they had already pulled guns on me and arrested me, so I didn’t want to talk about it with them
or discuss it with them.”
On December 1, 2006, Applicant was arrested for
Barnum’s murder. He denied knowing Barnum because they had already arrested him, and he was
scared.
Jacques Washington
A few days after Wildman’s murder, Applicant told
his friend Jacques Washington that he had had an “affair” with Wildman.
State’s Rebuttal
Jim Binford
After his arrest Applicant denied knowing Wildman and claimed no relationship with her. Binford did
not tell him that his DNA was found in her body.

15a
Laura Christian
Christian met Delores in 2010 when they were inmates in the Fort Bend County Jail. Christian was in
custody because of a drug court sanction, and Delores
was there on a bench warrant from prison to testify
against Applicant at his jury trial.
Christian encountered Applicant one day on the
prisoner van. He asked Christian if she knew Delores
“Gayle” and described Delores. Applicant told Christian that he had been a friend of Delores’s late husband
and that Delores was a liar and a snitch, an opinion he
wanted Christian to share with everyone in Delores’s
tank. Applicant also wanted Christian to tell Delores
that if she continued lying and being a snitch, she was
going to have something coming.
Christian told McGregor that Delores had mentioned that she was supposed to be able to parole out
because of her testimony; “she believed that for her testimony she was going to get off of parole.” Delores told
Christian “that she believed that she would get off parole based upon her cooperation in” Applicant’s case.
Allegation One: Witness Deals
Did the State promise benefits to Osani, Paxton,
and Delores in exchange for their testimony; did the
State fail to disclose any such promises; and did the
witnesses falsely testify that there were no such promises? The convicting court answered each of these questions in the affirmative but did not specify the nature

16a
of the promises or make specific credibility findings.4
Given these limitations, our first task is to determine
whether and what undisclosed benefits were promised
to the three witnesses.
Osani
Osani told Applicant’s jury that he was in jail in
2007-08 facing a felony domestic violence charge. After
he testified against Applicant in the grand jury, Osani’s
case was reduced to a misdemeanor, and he was sentenced to a year in jail. He was released from jail
within weeks of his grand jury testimony after serving
six months of his one-year sentence.
Osani denied that he had a deal for his testimony.
He testified that Roy Swainson, an investigator for the
State, came to him “out of the blue” to interview him
about the incriminating remarks Applicant had made
to him in jail; Shipley never promised him anything in
exchange for his testimony in front of Applicant’s jury;
and he did not know of anything she had done for him
in relation to his case. He initially denied knowing
that his attorney, Terrence Gaiser, had told Shipley
that Osani had information about Applicant, but after
he was impeached on this point with his grand jury
4

The purported credibility finding about Shipley, for example, pertained to the sincerity and validity of her belief about her
duty to disclose witness deals rather than her credibility. As for
Paxton, his lawyers, and Delores, the court implicitly included
them among a group of witnesses it deemed credible in unspecified “portions of their testimony” and not credible in other unspecified “portions of their testimony.”

17a
testimony, he admitted that he knew Gaiser had been
talking to Shipley. He maintained, however, that he
had not known what they talked about and that Gaiser
never told him that he was going to get a reduced sentence. He denied knowing that snitches get deals from
the DA or a “wink and a trust me” but agreed that although his case was pending when he testified before
the grand jury, he got to go home shortly thereafter.
Gaiser testified at habeas that Osani asked him to
get a deal in exchange for his information about Applicant, and Gaiser told Osani that he would receive consideration on his case if he testified against Applicant.
Specifically, Gaiser told Osani that his cooperation
would be taken into account by the State when it made
a sentencing recommendation. According to Shipley
and the prosecutor handling Osani’s case, Shipley told
her about Osani’s cooperation against Applicant, and
it was a factor in the resolution of his case. Applicant’s
lawyer, Don Bankston, testified that he was not informed of Shipley’s promise to Osani.
The habeas record supports a finding that Shipley
promised Osani that she would report his cooperation
to his prosecutor; Shipley failed to disclose that promise to Bankston; and Osani testified falsely that he received no benefit for testifying against Applicant. We
address materiality later in this opinion.
Paxton
The jury heard the following from Paxton about
his legal situation: After testifying against Applicant

18a
in the grand jury, Paxton pled guilty to two of five pending aggravated robbery charges; the remaining three
charges were dismissed. After that, his cases were
repeatedly reset for sentencing, and he was set for sentencing the week following his appearance at Applicant’s trial. He testified that he was facing a range of
five to 99 years on the cases to which he had pled guilty
with a cap of 45 years pursuant to a plea agreement.
Paxton testified that, although he had no guarantees,
he knew his lawyer would be in contact with his prosecutor after Applicant’s trial.
In response to leading questions on cross examination, Paxton answered in the affirmative that Shipley had told him that if he provided good information
on Applicant’s case, it was possible she would bring his
cooperation to the attention of his prosecutor and the
judge presiding over his case and that she “could” report his cooperation to them.
Shipley and Bankston testified at habeas that
Shipley disclosed to the defense her promise to bring
Paxton’s cooperation to the attention of his prosecutor.
But Bankston also testified to his suspicion that Shipley would “come back and recommend a finite number
that was far less than 45 years” and do so “after the
fact” to avoid having to disclose it. In fact, Paxton secured a plea agreement for seven years on his two aggravated robbery charges the week after his testimony
at Applicant’s trial.
Applicant maintained at habeas that the seven-year
deal was made before Paxton testified at Applicant’s

19a
trial. He proved that after the trial Shipley recommended the seven-year sentence to Paxton’s prosecutor; Paxton’s plea papers were changed from a cap of
45 years to an agreement for seven years; and Shipley
filed a motion to keep Paxton separate from Applicant
in the Harris County jail. Shipley, Paxton, and Paxton’s
plea lawyer testified that the seven-year deal was
reached after Paxton testified, the documentary evidence of Paxton’s plea agreement supports their testimony, and there was no evidence to the contrary. It is
unlikely that Shipley would have committed to a specific deal for a given sentence before Paxton testified
because there would have been no reciprocal commitment from Paxton. This record does not support a finding that Shipley promised Paxton seven years before
he testified at Applicant’s trial.
Alternatively, Applicant argued that Paxton testified falsely by downplaying as a mere possibility
Shipley’s promise to report his cooperation against Applicant to Paxton’s prosecutor. Paxton told Applicant’s
jury that Shipley told him she “could” tell his prosecutor about his cooperation against Applicant. Shipley
testified at habeas that she told Paxton she “would”
make such a report, a promise that she disclosed to
Bankston. Paxton’s potential bias was fully revealed by
his testimony, and the fact that his cases were still
pending and that he had no deal more specific than a
45-year cap suggested a greater incentive to curry
favor with the State than otherwise. See Bagley, 473
U.S. at 683 (“The fact that the stake was not guaranteed through a promise or binding contract, but was

20a
expressly contingent on the Government’s satisfaction
with the end result, served only to strengthen any incentive to testify falsely in order to secure a conviction.”). We cannot conclude that Paxton’s testimony
that his cooperation “could” rather than “would” be reported to his prosecutor gave the jury a false impression.
Delores
Delores denied having been promised anything for
her testimony and claimed that she wanted “to do the
right thing.” On cross examination she initially denied
knowing that the prosecutor could make a recommendation to the parole board but then said “I’ve heard
prosecutors help but I’ve never asked for any help,” and
she admitted to knowing that a time cut is where the
prosecutor makes a recommendation to the parole
board to cut a sentence.
At the habeas hearing Shipley and investigator
Robert Vernier testified that Shipley told Delores before trial that she “could” write a letter to the parole
board; Vernier conceded that Shipley might have said
that she “would” write such a letter. In a letter to her
parole attorney, Lori Redmond, Delores said that Shipley talked to her about parole during her interview before Applicant’s trial. Redmond testified via affidavit
that Delores informed her two days before she testified
against Applicant that Shipley was going to write a letter to the parole board for her cooperation against Applicant. After testifying and while Applicant’s trial was

21a
still underway, Delores wrote to Shipley asking for a
letter to the parole board. Shipley did write a letter immediately following Applicant’s trial, and in later correspondence with Delores, told her that she had “kept
[her] word” to her. In a 2014 email exchange with a supervisor, Shipley said that she was writing yet another
letter to the parole board as part of an agreement with
Delores.
Shipley did not tell Bankston that she had offered
a parole letter to Delores for her testimony, and she did
not correct the record when Delores told Applicant’s
jury that she had been promised nothing for her testimony. The record thus supports a finding that Shipley
failed to disclose her promise to Delores of a parole letter, and failed to correct Delores’s false testimony that
she had no such promise. We address materiality later
in this opinion.
Allegation Two: False Substantive Testimony
Applicant’s theory at habeas was that Delores lied
about everything at trial. He submitted that Delores
was fed information about him and Wildman by Alicia
Parker, his ex-fiancé, while Delores and Parker were
housed in the same prison unit in 2006, the same year
Delores wrote to Elliott.5 He proposed an explicit finding
5

In 2009, Alicia Parker spoke to Agent Gregory regarding
Applicant. Her only allusion to the Wildman murder was that on
one occasion when she and Applicant were in an argument, Applicant’s sister said, “You don’t want to mess with my brother.
You’ll end up like the lady down, down the street.” Alicia told
Agent Gregory she did not know what Applicant’s sister meant.

22a
that Delores lied about having overheard his admission to Brian, but the convicting court did not adopt it.
Instead the court found that Delores testified falsely
about her name, her address, having been married to
Brian, having seen a cut on Applicant’s lip on the night
of Wildman’s murder, and having seen Applicant’s father, a.k.a., “Big Ed,” that night. The only significance
of these findings is their implication that Delores also
testified falsely about having overheard Applicant’s
admission to Brian that he killed Wildman. If the findings are not supported by the record, then their implication fails. The convicting court also found that
Delores testified falsely about having cancer. The significance of that finding lies in its tendency to hide Delores’s ulterior motive in testifying against Applicant.
The trial court’s explicit findings about Delores’s
false substantive testimony suffer one of two flaws; either the defense elicited the testimony, and it was corrected by the State (presence of Big Ed), or falsity was
not proven (address, name, marriage, cut on lip, cancer
claim). We address each finding below.
Corrected by State: Presence of Applicant’s Father on Night of Murder
On cross examination of Delores, the defense
asked whether she had seen Big Ed in the crowd on the
night of Wildman’s murder. Delores answered in the
affirmative, but that was false because he was in custody. On redirect the State called into question Delores’s certainty about having seen Big Ed, and Delores

23a
backed off: “Well, I thought he was living there in that
house. I wasn’t sure. You know, my knowledge of them
is basically like Brian, things he tell me.”
A prosecutor has a constitutional duty to correct
known false evidence. Duggan, 778 S.W.2d at 468. Delores’s false testimony about Big Ed’s presence on the
night of Wildman’s murder was corrected by the State
and will not support Applicant’s claim for relief.
Not Proven False: Address
Applicant failed to prove by a preponderance of
the evidence that Delores’s trial testimony about her
address in 1990 gave the jury a false impression. Delores’s trial testimony about her address was inconsistent, subject to impeachment, and contradicted by
other evidence at trial. The evidence offered at habeas
was inconclusive and merely highlighted the inconsistencies in the evidence presented the jury heard.
Delores offered conflicting testimony to Applicant’s jury about her 1990 address. She named the
street variously as Town Glen, Tower Grove, and Tower
Gate. She eventually settled on her address as 1719
Tower Grove Court, pointed to it on a map, and identified a picture of it. She called her subdivision “Hunters
Trail” instead of “Hunters Glen”; she did not know
many of her supposed neighbors; and she could not
name any of the streets she would have traveled in order to get home on the night of the murder.

24a
Delores was impeached with prior inconsistent
statements about her 1990 address, having told Elliott,
Gregory, Bankston, and Bankston’s investigator that
she lived on Whispering Pine, not Tower Grove. She
specified to the FBI that her address was “4111” Whispering Pine, but she told Bankston and his investigator “something to the effect of ” 1411, the McGregor
family address. Furthermore, her arrest and bail bond
paperwork from 1989 and 1990 listed addresses in
Houston, not Missouri City.
In its case-in-chief the defense presented Sandra
Woods’s testimony that her sister, Barbara Gene Taylor, owned and lived in the house at 1719 Tower Grove
Court in Missouri City from 1989 to 2003 and corroborated this testimony with the 1989 closing papers. According to Woods, the only other person who lived with
Taylor in that house was her ex-husband. Woods visited her sister “all the time” in 1990 and never heard
of Delores Lee, Delores Gable, or Brian Gable. Woods
did not know the McGregors, either, and she testified
that Taylor kept herself apart from her neighbors.
Applicant’s brother testified that he never saw Delores Lee, Delores Gable, or Brian Gable when the
McGregors lived on Whispering Pine, and Applicant’s
mother testified that she had never seen Delores before Applicant’s 2010 trial.
This evidence left the State to argue that Delores
had simply been mistaken about her address. That was
a weak argument because Delores had committed to
the address and identified her house by pointing it out

25a
in a picture. The house she identified had the unusual
feature of no windows in front, making it unlikely that
she was simply mistaken.
At habeas the only evidence offered to disprove
Delores’s claimed residency in Missouri City was the
testimony of her mother, Doris Lee, who said that in
1990 Delores lived with her in Houston. Lee also testified that Delores did not always stay with her even
when she lived with her.
The conflicting trial evidence created a credibility
question for the jury. Since habeas is not an opportunity to re-hash issues fully and fairly litigated before
a jury, a habeas court must defer to the jury’s judgment
about the weight and credibility of evidence presented
at trial. De La Cruz, 466 S.W.3d at 870. Applicant failed
to prove that Delores’s testimony about her address
was false, and the convicting court’s finding on this
point circumvents the jury’s role as factfinder.
Not Proven False: Name and Marriage to Brian
The significance of Delores’s testimony on these
points is rooted in their tendency to prove that Delores
had an intimate relationship with Brian. Marital status does not matter in itself; the issue is whether they
had a relationship. If Delores did not have a relationship with Brian, then she would not have been in a position to overhear Applicant’s admission to him. This
logic assumes that Brian, contrary to the defense evidence at trial, did live in the same neighborhood as
the McGregors or at least had a relationship with

26a
Applicant. No evidence other than Delores’s testimony
proved that Brian was a neighbor of the McGregors.
We will assume for the sake of argument that if Delores did not have an intimate relationship with Brian,
then she would not have been in a position to hear
anything Applicant said on the night of Wildman’s
murder.
The trial evidence about Delores’s last name being
Gable consisted of her own testimony and a 1989 bail
bond offered by the defense to impeach her testimony
about her address; it named her as “Delores Gable.” At
habeas Delores’s mother Doris testified that Delores’s
last name was never Gable, and Doris never met Brian
Gable. But Delores’s daughter, Dwauna Lee, testified
at habeas that Delores had the last name of Gable at
some point. Given the contradictory habeas evidence
about Delores’s name and the 1989 bail bond showing
her last name as Gable, Applicant did not prove that
Delores’s last name was not Gable.6
Regarding the marriage between Delores and
Brian, the only source of evidence at trial on that point
was Delores. The habeas evidence was inconsistent.
Dwauna testified that she met Brian and assumed that
Delores was married to him. But she told the State’s
habeas investigator that, although Delores and Brian
had a relationship, she did not know the nature of it.
Doris testified that she never met Brian. Database
searches revealed no marriage between Delores and
6

point.

We also note that Applicant did not seek a finding on this

27a
Brian. However, a database search of Brian Keith Gable presented by Applicant did reveal that the address
on Delores’s 1989 driver license and on a 1989 indictment against her was that of “Brian K Gable,” and two
of the places Delores claimed at trial that she had lived
with Brian – Greenhouse Patio and Brookston Street –
are also listed in the report as addresses of “Brian K
Gable.” Applicant also submitted a transcript of an FBI
interview with Brian’s brother, Bennie Gable, wherein
Bennie told the FBI that Brian had a relationship with
a booster named “Delores” and that Brian and “Delores” had an apartment together.
Applicant failed to prove that Delores testified
falsely about having been married to Brian. Even if Applicant had proven that Delores falsely testified about
having been married to Brian, that would not have disproven a relationship between the two.
Not Proven False: Cut on Lip
Delores was the only witness to testify that Applicant had a cut on his lip on the night of Wildman’s murder: “It was like, you know, kind of red, like – was fresh
at the time, like – like a cut.” On cross examination she
admitted that she had not mentioned the cut to the
FBI and had told Bankston that Applicant had a scar
that night – not a cut – and that he had no blood on
him. She backed off on the implication that the cut she
claimed to have seen in 1990 was the cause of the scar
still on his face in 2010, and she said she saw no blood.
“It wasn’t – it wasn’t that large, but there, yes, it is. . . .

28a
It wasn’t pink like that, though, sir.” She said she was
not surprised that he got the scar in 1992.
The defense offered at trial the testimony of Applicant, Tesfa, Sonia, and Reid to prove that Applicant
had no cuts on him on the night of Wildman’s murder.
The habeas evidence – medical records – proved
that Applicant suffered a serious cutting wound to his
lip in 1992 that required plastic surgery; it did not
prove that he did not suffer a superficial cut in 1990.
The convicting court’s finding that Delores testified
falsely on this point is unsupported by the record.
Not Proven False: Cancer
In its original findings and conclusions, the convicting court found that Delores testified falsely “that
she had cancer, which was the reason for testifying.” In
its supplemental findings, the court found that Delores
lied when she testified that she was “dying of cancer[.]”
These findings are not supported by the record because
Delores did not leave the impression with the jury that
she had cancer or was dying of it at the time of her
testimony or that cancer was the reason for her testimony. At most, the record would support a finding that
Delores falsely claimed in 2006 – four years before Applicant’s trial – that she had colon cancer then and that
cancer was the reason for her coming forward then.
The cancer claim originated with Delores’s 2006
letter to district attorney Elliott. The letter was admitted without limitation over defense objections, and

29a
Shipley read it to the jury. The letter reads as follows
with emphasis added and without corrections to grammar, punctuation, or spelling:
Mr. Elliot,
I’m writing to you concerning the murder
case you’re handling on Edward McGregor, Jr.
When I 1st heard about the case it left my
mouth open because I was in awe. I do mean
total disbelief.
I know Edward McGregor and his family
very well. In fact – at the time of the murder
of Kim Wildman – I lived in Missouri City on
Whispering Pines as well.
I’m uncertain what all I want to tell you
at this point – because I 1st have to consult
with a couple of family members. My mother
whom is 76 is against me giving over information that could very much seal your case.
Now – let me explain and tell you about
myself. I’m Delores Lee – Gable. I was married
to a well known drug dealer in Houston,
Texas. I’m a mother of 3 and 3 grandchildren.
A Blk female, 44 yrs of age. I know Big Ed (Edward McGregor, Sr. And Sonya McGregor)
very well. I can assure you.
I’m presently incarcerated and I have
been for 12 yrs. 2yrs. at Harris Co. And 10 yrs
in TDCJ. I have a 90 yr. sentence for credit
card abuse, escape (when they came to arrest
me at my mom’s house), a drug case for 2 kilo’s
I received over the telephone in Harris Co.

30a
jail, and a solicitation to commit capital murder on my 2 state witness’es – also over the
telephone that involved a paid informant.
Plus, I have on my record other minute offenses. No one was harmed in my solicitation
case.
I’ve recently been diagnosed with colon cancer. So – if I can help you convict
Edward McGregor Jr and I’m sure I can.
I am seeking some relief from testifying
or I’ll just leave well enough alone.
I’ve spoken with a couple of officers here
I’m cool with and they said “if I don’t see fit –
don’t help.” I have a conscious and I really feel
mostly sadden for Kim Wildman elderly parents. I know they need peace.
Yet, I’m still confused if I want to come
forth with all I know. I have to think about my
life and if I’m endangering my family or myself and that’s what I don’t want to do. I’ll do
the remainder of my time and know they’re
safe.
I’ll await your response.
/s/ Delores Lee Gable
Asked at trial about her cancer prognosis, Delores
answered, “Polyps. I have polyps, but I’ve been treated
for it” and said that she was still under treatment.
With respect to her letter’s reference to “seeking some
relief from testifying,” Delores said she meant that she
wanted “to do the right thing.”

31a
Applicant offered at habeas an affidavit from the
custodian of health records for inmates of the Texas
Department of Criminal Justice Institutional Division
which said that there were no records “pertaining to
cancer” for Delores from September 1992 to September
2010. Doris also testified at habeas that Delores had
never had cancer.
The record supports a finding that Delores falsely
claimed in her 2006 letter that she had colon cancer
but does not support a finding that she claimed at Applicant’s trial that she had cancer or was dying of it at
that time. She never said she was dying of cancer, not
even in 2006. Her testimony that she underwent treatment for polyps would not have left the jury with a
false impression that she had cancer in 2010; to the
contrary, her live testimony in 2010 downgrading her
medical condition to treated polyps tended to undermine, if not disprove, her 2006 claim that she had cancer. Considering the testimony as a whole, Applicant
has not shown by a preponderance of the evidence that
Delores’s statement about being “treated for it” left the
jury with the false impression that she had cancer in
2010.
Materiality
Were the following points material to Applicant’s
conviction?
Osani’s denial that Shipley promised him anything when in fact she promised that his cooperation as a grand jury witness would be

32a
taken into consideration by his prosecutor;
and
Delores’s denial that Shipley promised her
anything when in fact she promised a letter to
the parole board.
Because the State knowingly presented the false testimony, the issue is whether we can say beyond a reasonable doubt the false evidence cumulatively did not
contribute to the verdict.
Delores’s false testimony is not significant to the
materiality analysis because her expectation of a parole benefit was proven to the jury by other evidence.
See Turner, 137 S.Ct. at 1895 (withheld impeachment
evidence may not be material if the evidence withheld
is cumulative of other evidence on the same topic).
First, Delores’s expectation – or at least hope – about
parole was suggested in her letter to Elliott; she expressed ambivalence about providing information, she
recounted the advice of friendly corrections officers not
to help if she did not “see fit” to do so, and she stated
that she was “seeking relief from testifying” or she
would “just leave well enough alone[,]” a clear hint that
she was seeking a quid pro quo. Her expectation was
also highlighted by her admissions on cross examination that she knew about time cuts and had heard that
prosecutors can help with parole. Finally, her expectation was fully revealed by the testimony of her fellow
Fort Bend County jail inmate, Christian, who said that
Delores expected a parole benefit for her testimony
against Applicant. Thus, although Delores falsely denied her expectation of a parole letter, and Shipley

33a
failed to disclose her promise, those facts are not significant to the materiality analysis because Delores’s
expectation was proven by other evidence.
More significant to the materiality analysis is
Osani’s denial of Shipley’s promise to him. “The jury’s
estimate of the truthfulness and reliability of a given
witness may well be determinative of guilt or innocence, and it is upon such subtle factors as the possible
interest of the witness in testifying falsely that a defendant’s life or liberty may depend.” Napue, 360 U.S.
at 269. Although the jury knew of Osani’s favorable
plea agreement, it was not informed that his cooperation against Applicant had been a factor in its negotiation. The fact that his case was no longer pending when
he appeared at Applicant’s trial made it less likely that
the jury would have inferred bias on his part; the jury
might have assumed that he no longer had an incentive to please the State. Finally, given that his testimony echoed Paxton’s, his apparent status as an
unbiased witness would have helped to reinforce their
claims about Applicant’s incriminating comments to
them.
Cases in which false evidence has been held material are often characterized by a lack of physical evidence linking the defendant to the crime and the
tendency of the false evidence to undermine the State’s
other incriminating evidence.
In Wearry, for example, the defendant was convicted of murder on the testimony of two witnesses,
Scott and Brown, and some circumstantial evidence.

34a
Wearry, 136 S.Ct. at 1003. The prosecution withheld
evidence of (1) Scott’s remarks to fellow inmates about
his grudge against Wearry, his coaching of one inmate
about what to say and suggesting that his saying it
would help the inmate get out of jail; (2) Brown’s efforts
to reduce his sentence in exchange for his testimony;
and (3) medical records that made part of Scott’s account unlikely. Id. at 1004-05. The Supreme Court considered the withheld evidence material because the
State’s evidence was “a house of cards, built on the jury
crediting Scott’s account rather than Wearry’s alibi[,]”
and the only evidence directly tying Wearry to the murder “was Scott’s dubious testimony, corroborated by the
similarly suspect testimony of Brown.” Id. at 1006.
In Napue, the State’s principal witness, Hamer,
was an accomplice serving a 199-year sentence at the
time of his testimony against Napue. The State failed
to disclose its promise to Hamer of a reduced sentence
in exchange for his testimony, and Hamer testified that
no promises had been made to him. 360 U.S. at 265.
The jury convicted Napue based on evidence consisting largely of Hamer’s testimony. Id. at 266. The Supreme Court reversed the conviction because of the
false evidence. “Hamer’s testimony was extremely important because the passage of time and dim light in
the cocktail lounge made eyewitness identification
very difficult and uncertain, and because some pertinent witnesses had left the state.” Id.
Similarly, in Giglio, the co-conspirator in the offense and only witness linking Giglio with the crime,
Taliento, denied that he was promised immunity if he

35a
cooperated with the government. 405 U.S. 150, 151-52.
In fact, one of the government attorneys involved in
the case had promised Taliento he would not be prosecuted if he testified against Giglio. Id. at 152. The Supreme Court held that Giglio’s due process rights were
violated by the false testimony.
Here the Government’s case depended almost
entirely on Taliento’s testimony; without it
there could have been no indictment and no
evidence to carry the case to the jury. Taliento’s credibility as a witness was therefore
an important issue in the case, and evidence
of any understanding or agreement as to a future prosecution would be relevant to his
credibility and the jury was entitled to know
of it.
Id. at 154-55.
In Ex parte Chabot, new DNA evidence showed
that the only eyewitness, a co-conspirator to the offense,
testified falsely. This Court concluded that the false testimony was material because it was the only direct evidence, it was critical to the State’s case because the
State predicated its theory of the case on the false testimony, and the new evidence also refuted the testimony of another State’s witness. 300 S.W.3d at 772.
Applicant’s case is distinguishable from the foregoing cases in which materiality was found. Physical
evidence linked Applicant to the victim near the time
of her murder, and that evidence was not called into
question by the false evidence; Osani and Delores were
not Applicant’s accomplices or the State’s principal

36a
witnesses; the State’s case was not predicated on the
false testimony; and the false evidence did not relate
to or refute the witnesses’ substantive testimony.
We are convinced beyond a reasonable doubt that
the outcome of this case would have been the same
even if the jury had heard evidence that Osani’s cooperation as a grand jury witness against Applicant
would be taken into consideration by his prosecutor
and even if Delores had admitted that she expected a
parole letter. Given the DNA evidence against Applicant and the long odds against the defensive theory
that he innocently had sex with two women – whom he
knew but denied knowing – shortly before their brutal
murders four years apart, the State’s case was fairly
strong. Viewed in light of the totality of the record, we
cannot say that the false testimony was material to Applicant’s conviction.
CONCLUSION
Applicant’s Claims 1 and 2 fail because the evidence was either not proven false or was not material
to the conviction. Claims 3 and 4, alleging ineffective
assistance and prosecutorial misconduct, are without
merit, and Claim 5 has been made moot by the trial
court’s nunc pro tunc judgment awarding the credit
Applicant sought. Consequently, we deny relief.
Delivered: June 12, 2019
Do Not Publish

37a
No. 09-DCR-053051 HC1
EX PARTE
EDWARD GEORGE
MCGREGOR

§
§
§
§

IN THE 434th JUDICIAL
DISTRICT COURT OF
FORT BEND COUNTY

FINDINGS OF FACT & CONCLUSIONS OF LAW
(Filed Nov. 7, 2016)
On March 31, 2016 Applicant filed an Application
for Writ of Habeas Corpus. This Court held a hearing
on Applicant’s application and pursuant to Article
11.07 of the Texas Code of Criminal Procedure, the
Court hereby enters the following Findings of Fact &
Conclusions of Law:
FINDINGS OF FACT
(1) On September 3, 2010, a jury found Applicant
guilty of the offense of Capital murder and the Court
assessed an automatic sentence of life in prison. TEX.
PENAL CODE § 19.03; TEX. PENAL CODE § 12.31(a)(1).
Applicant’s Claims
(2) In his writ application, Applicant raises the following claims:
(a) The State suppressed evidence and used false
testimony regarding the benefits provided to its
witnesses;

38a
(b) The State used false testimony that Applicant confessed to Delores Lee Gable;
(c) Applicant was denied the effective assistance
of counsel at the guilt-innocence phase of trial;
(d) The cumulative effect of the prejudice of the
prosecutorial misconduct and the deficient performance of counsel requires relief; and
(e) Counsel was ineffective for failing to insure
Applicant received all of his pre-trial jail time
credit.
Relevant Trial Testimony
(3) At trial, Delores Gable1 testified that she witnessed Applicant confess to a man she claimed was her
husband, Brian Gable, that he (Applicant) killed the
victim in this case. (HCRR6: Exhibit 23).
(4) Delores Gable testified at trial that she did not receive a benefit for her testimony and that she was testifying to clear her conscious because she was suffers
from cancer. (HCRR6: Exhibit 23).
(5) Gable testified that on the night the murder in
this case occurred, Applicant had a fresh cut on his lip,
that she lived on the street where the murder occurred,
that she was married to Brian Gable, and that

1

Gable’s name has now been proven to be Delores Lee, but
the Court will refer to her as Gable since that is how she is identified in the Reporter’s Record of the trial in this case.

39a
Applicant’s father was present when Applicant allegedly confessed. (HCRR6: Exhibit 23).
(6) Marvin Roy Paxton testifies that while he was incarcerated in the Harris County Jail, he had an altercation with Applicant. (HCRR6: Exhibit 24).
(7) According to Paxton, during the altercation, Applicant directed Paxton to shut his mouth or he (Applicant) would kill him like he had killed “those two
bitches.” (HCRR6: Exhibit 24).
(8) Paxton testified that Applicant later apologized,
but affirmed that he had killed two women. (HCRR6:
Exhibit 24).
(9) Paxton testified that he was not promised anything for his testimony and that his cases in Harris
County were still pending. (HCRR6: Exhibit 24).
(10) Adam Osani testified that while he was incarcerated in the Harris County Jail, he witnessed and [sic]
exchange between Applicant and Paxton in which Applicant said he would kill Paxton like “those other two
bitches.” (HCRR6: Exhibit 25).
(11) Osani testified that he was not promised anything for his testimony. (HCRR6: Exhibit 25).
Habeas Corpus Hearing
(12) Sonia McGregor testified at the habeas corpus
hearing that on the night of the offense in this case,
April 17, 1990, Applicant’s father was in prison and

40a
could not have been present out on the neighborhood
street as Gable testified to. (HCRR2: 57).
(13) Doris Lee testified that Delores Lee is her
daughter and that Delores was never Delores Gable.
(HCRR: 66).
(14) Doris Lee testified that Delores Lee was never
married to Brian Gable and has always gone by the
name of Delores Lee, even on her prison paperwork.
(HCRR2: 66).
(15) Doris Lee testified that Delores has never had
cancer. (HCRR2: 67).
(16) Doris Lee testified that in 1990, Delores Lee
lived in Houston with her. (HCRR2: 68-69).
(17) Terrance Gaiser testified that he is any [sic] attorney and represented Adam Osani on a felony charge
of assault family violence in the 230th District Court
of Harris County in 2007 and 2008. (HCRR2: 94).
(18) The State and Osani originally agreed to a sentence of six years’ deferred adjudication, but the plea
was rejected by the trial court. (HCRR2: 94-95).
(19) Osani contacted Gaiser approximately one week
prior to his trial and related that he had information
regarding Applicant’s case. (HCRR2: 96).
(20) Osani wanted Gaiser to use the information to
obtain a plea agreement. (HCRR2: 99).

41a
(21) The State filed a motion for continuance in
Osani’s case so that he could testify before the grand
jury before his case was disposed of. (HCRR2: 99-100).
(22) After Osani testified at the Grand Jury, Gaiser
was informed that Osani would receive a misdemeanor. (HCRR2: 101).
(23) Gaiser believed the reduction of Osani’s charges
was a reward for testifying at the Grand Jury. (HCRR2:
101).
(24) It was Gaiser’s understanding that the prosecutor who made the plea offer was directed to make that
offer by Beth Shipley, the trial prosecutor in the present case. (HCRR2: 102-03).
(25) Gaiser related that Osani’s charge was reduced
to a misdemeanor on January 31, 2008 and he received
credit for time served. He was released days after testifying before the Grand Jury. (HCRR6: 103).
(26) Gaiser told Osani he would receive consideration
if he cooperated with the State and testified at the
Grand Jury. (HCRR6: 105).
(27) Gaiser related that he did not disclose Osani’s
deal with the State to Applicant’s trial attorney because that as the prosecutor’s role. (HCRR2: 113).
(28) Gaiser testified that it was his experience that
prosecutors in Harris County do not disclose “deals”
with witnesses so the deal will not be revealed to a jury.
(HCRR2: 158).

42a
(29) Ryan Mitchell testified that he is an attorney
who was employed with the Harris County District Attorney’s office for approximately six years. (HCRR2:
160).
(30) Mitchell was assigned to the 339th District
Court in Harris County and was present when Paxton
entered a guilty plea to the aggravated robbery
charges against him. (HCRR2: 169).
(31) Paxton’s original plea agreement was an “open
plea” and with a “cap” of forty-five years in prison.
(HCRR2: 166).
(32) At the time of Paxton’s plea, someone crossed out
the original agreement on the plea papers previously
filed with the Court. In place of the original agreement,
someone wrote in “seven years’ TDCJ.” (HCRR2: 170).
(33) Mitchel testified that he did not alter Paxton’s
plea papers. (HCRR2: 171).
(34) The same date that Paxton was sentenced pursuant to the new agreement for seven years, Shipley
filed a motion to keep Paxton and Applicant separate
at the Harris County Jail. (HCRR2: 172).
(35) Carvana Hicks Cloud testified that she was previously employed at the Harris County District Attorney’s Office and was assigned to Osani’s case. (HCRR2:
185-86).
(36) A plea bargain of six years’ deferred adjudication
was reached in Osani’s case, but the trial judge rejected
the agreement. (HCRR2: 186).

43a
(37) Prior to Osani’s trial, Cloud filed a motion for
continuance because Osani was set to be a witness in
a capital murder trial. (HCRR2: 186-87).
(38) Cloud learned that Osani would be a witness in
Applicant’s trial from Shipley and included in her motion that Osani was a “critical witness in a capital murder against [Applicant].” (HCRR2: 188).
(39) After Osani testified at the Grand Jury, Shipley
sent an email to Cloud indicating his testimony was
completed and he testified truthfully. (HCRR2: 191).
(40) Shipley told Cloud she could do what she wished
with the case. (HCRR2: 192).
(41) Cloud reduced Osani’s case to a misdemeanor
because of his cooperation in testifying against Applicant. (HCRR2: 193).
(42) Cloud testified that Osani received a benefit in
exchange for his cooperation and that she would have
disclosed that benefit to Applicant’s defense counsel.
(HCRR2: 194).
(43) Cloud testified that Shipley put into motion a
scenario in which Osani was allowed to go home after
he testified before the Grand Jury. (HCRR2: 203).
(44) Elizabeth Shipley Exley2 testified that she is employed at the Harris County District Attorney’s Office

2

The Court will refer to Elizabeth Shipley Exley, the trial
prosecutor in this case as “Shipley,” the name she used during the
prosecution of this case, to avoid confusion.

44a
and served as a prosecutor in the trial of the present
case. (HCRR3: 10).
(45) Shipley stated that the time the trial was had in
this case, it was her understanding that Brady3 evidence was required to be disclosed, including evidence
to show the defendant was not guilty, impeachment evidence of a witness, and any special consideration
given to a witness. (HCRR3: 11).
(46) When asked if she would disclose the fact that a
witness, who had pending charges, was to receive some
assistance in his case, although that assistance had
not yet been determined at the time of trial, Shipley
answered, “Probably.” (HCRR3: 13).
(47) Shipley clarified that if the jury was told the witness had pending cases, she did not have to disclose to
the defense that she planned to tell a Judge or prosecutor that the witness cooperated, even if she expected
that fact could be considered in regards to a lighter
sentence for the witness. (HCRR3: 14-15).
(48) Shipley stated that her plan in Paxton’s case was
to inform the Judge and the prosecutor about his cooperation as a witness, and that that plan was not a possibility, but something she intended to do. (HCRR3:
17).
(49) Shipley testified that if it was her intent to reduce a witness’s sentence from thirty years to seven

3

Brady v. Maryland, 373 U.S. 83 (1963).

45a
years, after they testified for the State, she was not required to disclose that fact. (HCRR3: 18-19).
(50) Shipley agreed that defense counsel filed a
Brady motion prior to trial in which he requested the
disclosure of any consideration that had been given to
any witness in this case. (HCRR3: 30-31).
(51) Shipley agreed that her co-counsel, Jeff Strange
told defense counsel that there was no consideration
given to any witness in this case. (HCRR3: 31).
(52) Shipley testified that she had not agreed to write
a letter to the parole board for Gable before she testified, but then stated, “I told her the most that I could
possibly do is write a letter to the parole board explaining to them that she had cooperated. I didn’t say specifically that I would do it, it wasn’t a promise.”
(HCRR3: 35).
(53) Shipley testified that she does not remember
what she told Strange regarding any Brady disclosures
in this case. (HCRR3: 37).
(54) Shipley testified that she did not know Gable
was not married to Brian Gable and did not investigate
any of her factual assertions regarding her address or
whether she had cancer. (HCRR3: 57, 59).
(55) Shipley was aware that Grable was confined
with Applicant’s ex-fiance in the same unit. (HCRR3:
59).

46a
(56) Shipley did not inform the jury, through questioning of Gable, that Gable had been confined in the
same unit as Applicant’s ex-fiance. (HCRR3: 62).
(57) Shipley agreed that when she interviewed Grable, she did not record the interview even though she
recorded all of the interviews with the other witnesses
in this case. (HCRR3: 65-66).
(58) Shipley testified that when she interviewed Gable at the TDCJ Hobby Unit, which was prior to trial,
she told Gable that the only thing she could do to help
her was to write a letter to the parole board. (HCRR3:
66-67, 69).
(59) Shipley testified that during an interview in December of 2015, she stated, “I didn’t promise her anything more than I’ll tell the parole board what you’ve
done.” (HCRR3: 70).
(60) Shipley repeatedly insisted her words were not
a promise. (HCRR3: 70-83).
(61) Shipley then testified that she made the decision
to write the letter to the parole board on Gable’s behalf
during the trial. (HCRR3: 84).
(62) Shipley agreed that when Gable was asked at
trial if she knew the prosecution could assist her with
the parole board, she answered, “No, I don’t know that
sir.” (HCRR3: 86-87).
(63) Shipley agreed that she asked Gable at trial on
direct examination whether Gable had asked for a

47a
parole recommendation and Gable answered, “No,
ma’am.” (HCRR3: 88).
(64) When asked why she did not clarify that she and
Gable had a conversation in which Shipley told Grable
she could write a letter to the parole board if Gable assisted the prosecution, Shipley answered, “I think I forgot.” (HCRR3: 90).
(65) Shipley agreed that while the trial was still under way, Gable sent her a letter instructing her on
what to include in the letter Shipley agreed to write to
the parole board on Gable’s behalf. (HCRR3: 96). Gable’s instructions came from Lori Redmon, Gable’s parole attorney. (HCRR3: 97).
(66) Shipley wrote a letter to the parole board on
Gable’s behalf on September 8, 2013, five days after the
conclusion of the trial in this case. (HCRR3: 97).
(67) Shipley did not disclose to Strange or defense
counsel that she wrote the letter to the parole board.
(HCRR3: 98-99).
(68) Shipley testified that Gable was a critical witness in the trial and the only witness who testified that
Applicant confessed to the murder in this case.
(HCRR3: 101).
(69) Shipley wrote another letter to the parole board
on August 6, 2014. (HCRR3: 114).
(70) The First Assistant District Attorney of Harris
County sent an e-mail to Shipley and asked “is the letter of support for Delores Lee part of an agreement you

48a
made with Ms. Lee?” To which Shipley responded, “Yes,
I told her that I would let the parole board know that
she helped with the prosecution. I told her that was no
guarantee she would be paroled but that I would notify
them of her cooperation.” (HCRR3: 115)(HCRR6: Exhibit 173).
(71) Shipley stated that if the case were tried today,
she would “probably” disclose her agreement with Gable because of the Michael Morton Act. (HCRR3: 11617).
(72) Shipley testified that she did not investigate
where Gable lived, who she was married to, or whether
Applicant received a scar above his lip prior to trial.
(HCRR3: 126-28).
(73) Shipley testified that she knew Applicant’s father was in prison on the night of the offense in this
case, but that Gable testified he was present and outside the victim’s home on the night of the offense.
(HCRR3: 131).
(74) Shipley testified that as for Paxton, she agreed
to tell the Court and that prosecutor that he had cooperated if he testified. (HCRR3: 140).
(75) After Paxton testified at the grand jury, he pled
guilty to two aggravated robberies and three others
were dismissed. (HCRR3: 141). The plea agreement
was a “cap” of forty-five years. (HCRR3: 142).
(76) Shipley told the prosecutor in Paxton’s case to
delay his sentencing until after he testified, which delayed his sentencing for almost a year. (HCRR3: 144).

49a
(77) Shipley did not remember telling defense counsel that Gable lied to him that she did not know Applicant’s ex-fiance when he visited Gable in prison.
(HCRR3: 149).
(78) The State was on notice that Gable was incarcerated with Applicant’s ex-fiance and had lied about that
fact to defense counsel on December 1, 2009, and July
1, 2010, respectively. (HCRR6: Exhibits 174 & 175).
(79) Shipley testified that she told Paxton that if he
testified against Applicant she “would tell people that
he gave information.” (HCRR3: 157).
(80) Shipley stated that specifically, she would tell
the Court in which he would be sentenced that Paxton
cooperated and that that would be a benefit to him.
(HCRR3: 158).
(81) After Paxton testified, Shipley agreed with the
trial prosecutor and Paxton’s defense attorney to a
term of seven years on a robbery, not an aggravated
robbery. (HCRR3: 171).
(82) Paxton was not sentenced until after the time for
filing a motion for new trial in Applicant’s case.
(HCRR3: 172).
(83) Shipley testified that after Osani testified at the
grand jury, she told Cloud she could do whatever she
wanted to on his case because he cooperated and
helped the State. (HCRR3: 197-98).

50a
(84) Shipley testified that she did not tell Strange or
defense counsel about the benefit Osani received prior
to trial. (HCRR3: 198).
(85) Robert Vernier, a former Harris County District
Attorney investigator, testified that he accompanied
Shipley to a TDCJ Unit to interview Gable. (HCRR3: 2
24).
(86) The interview was not recorded, but Vernier recalled that Gable wanted Shipley to write a letter to
the parole board and specify that Gable was cooperative in this case. (HCRR3: 226).
(87) Vernier testified that Shipley told Gable she
could write the letter. (HCRR3: 226).
(88) Vernier testified that it was the common practice
of prosecutors at the Harris County District Attorney’s
Office to state to a witness that they could not promise
anything in return for their testimony, but could write
a letter on the witness’s behalf if the prosecutor chose
to do so. (HCRR3: 232).
(89) Jeff Strange testified that he was formerly employed at the at the Fort Bend County District Attorney’s Office and was the lead prosecutor in this case.
(HCRR4: 6).
(90) Strange testified that it was his understanding
that at the time of the trial in this case, the law required the State to disclose any assistance a witness
received in exchange for their testimony. (HCRR4: 7).

51a
(91) Strange testified that anything a witness might
believe could be a benefit as a result of his or her testimony was required to be disclosed to the defense.(HCRR4: 9-10).
(92) Strange testified that it was his practice to put
any agreement with a witness in writing or recite the
agreement into the record and to disclose that agreement to the jury. (HCRR4: 9).
(93) Strange testified that the State’s duty to disclose
an agreement with a witness extends after the witness
testifies and after the trial is over. (HCRR4: 10-11).
(94) Strange testified that if, during trial, a state’s
witness testified falsely, he would stop the proceedings,
approach the bench, try to resolve the issue with the
witness, and notify defense counsel of the issue.
(HCRR4: 13).
(95) Strange testified that the DNA evidence in this
case was not sufficient to prove Applicant’s guilt and
that is why the State called Gable, Paxton, and Osani
to testify. (HCRR4: 16).
(96) Strange agreed that defense counsel in this case
filed a Brady motion requesting the disclosure of any
consideration any of the witnesses who supplied information to the State, a specifically, witnesses at the
Grand Jury and the trial. (HCRR4: 20-21).
(97) Strange testified that the State’s response to defense counsel’s request for disclosure of any consideration to witnesses was that there was nothing
responsive to his request. (HCRR4: 21).

52a
(98) Strange testified that he and Shipley agreed that
she would handle Gable, Paxton, and Osani as witnesses. (HCRR4: 22-12).
(99) Strange testified that Shipley never told him she
agreed to write a letter to the parole board on behalf of
Gable. (HCRR4: 25).
(100) Strange testified that had he known Shipley
has a conversation with Gable about Shipley writing a
letter to the parole board on her behalf, he would have
disclosed that fact to defense counsel. (HCRR4: 33).
(101) Strange testified that Shipley never told him
prior to trial that she would go to the judge and prosecutor in Paxton’s case in which he was awaiting sentencing and inform them that he cooperated with the
State. (HCRR4: 26).
(102) Strange testified that Shipley never told him
after the trial in this case that she notified the prosecutor in Paxton’s case that he cooperated and that she
(Shipley) agreed to a seven-year prison sentence in an
aggravated robbery case. (HCRR4: 27).
(103) Strange testified that he learned that the sentencing in Paxton’s case had been reset so he asked
Shipley if there was a deal where the trial judge in Paxton’s case was going to consider Paxton’s testimony in
this case at his sentencing. (HCRR5: 7).
(104) Shipley led Strange to believe that Paxton’s
case had already been worked out and that the reset
had nothing to do with the present case. (HCRR5: 7-8,
9).

53a
(105) Based on Shipley’s assertion, Strange did not
believe she would have any input on Paxton’s sentencing. (HCRR5: 9).
(106) Strange testified that had he known of Shipley’s actions in Paxton’s case, he would have disclosed
that information to defense counsel. (HCRR4: 27).
(107) Strange testified that Shipley never told him
that she arranged for Osani’s case to be continued so
that he could testify before the Grand Jury or that she
notified the trial prosecutor in Osani’s case that Osani
cooperated with the State and that the prosecutor
could take that into account in resolving Osani’s case,
which was ultimately reduced to a misdemeanor with
credit for time served. (HCRR4: 27-28).
(108) Strange testified that had he known of Shipley’s actions in Osani’s case, he would have disclosed
that to defense counsel because it was Brady information that required disclosure. (HCRR4: 28-29).
(109) Strange testified that any agreements made between Shipley and the witnesses in this case were done
without his knowledge. (HCRR4: 31).
(110) Strange testified that he had no knowledge that
Shipley wrote a letter on behalf of Gable to the parole
board or had any correspondence with Gable’s parole
attorney. (HCRR4: 35-36).
(111) Strange testified that had he known about the
letter Shipley wrote to the parole board, he would have
disclosed that fact to defense counsel during the time
for filing a motion for new trial. (HCRR4: 36).

54a
(112) Strange testified that he anticipated that defense counsel would have filed a motion for new trial
had he known about the letter Shipley wrote to the parole board. (HCRR4: 36).
(113) Strange testified that Shipley should have told
him about the letter she wrote to the parole board because he was the lead prosecutor in the case. (HCRR4:
37).
(114) Based on Shipley’s assertion in an email to the
First Assistant District Attorney in Harris County regarding a letter Shipley wrote to the parole board on
Gable’s behalf in 2014, Strange testified that it seemed
as if Shipley had an agreement with Gable to write a
letter for her. (HCRR4: 38-39).
(115) Strange testified that had the agreement between Shipley and Gable been disclosed to him, he
would have approached the bench at trial and attempted to correct Gable’s testimony that she was not
promised anything for her testimony. (HCRR4: 39).
(116) Strange testified that had the agreement between Shipley and Gable been disclosed to him, he
would have approached the bench at trial and attempted to correct Gable’s testimony that she did not
know the State could help her by making a recommendation to the parole board. (HCRR 4: 39-40).
(117) Strange testified that, as a prosecutor, he has
written a letter to the parole board on behalf of a witness in the past, but disclosed that fact to the jury and

55a
defense counsel because it is required by law. (HCRR4:
41-42).
(118) Strange testified that had he known Gable lied
to defense counsel when she stated she did not know
Applicant’s ex-fiance, he would have disclosed that fact
to defense counsel because it indicated deception on
Gable’s part. (HCRR4: 84).
(119) Strange testified that specifically, Gable’s lie to
defense counsel was Brady material as impeachment
evidence. (HCRR4: 86-87).
(120) Don Bankston testified that he is a criminal defense attorney and represented Applicant in the trial
of this case. (HCRR4: 94).
(121) Prior to trial, Bankston filed a Brady motion requesting the disclosure of any consideration given to a
witness for the witness’s trial or grand jury testimony.
(HCRR4: 94-95).
(122) Prior to trial, Bankston asked Shipley whether
there had been any consideration given to any prosecution witness in exchange for grand jury testimony or
trial testimony and she said, “None.” (HCRR4: 106).
(123) Prior to trial, Bankston asked Shipley whether
there would be any consideration given in the future to
any prosecution witness and Shipley said she would
not be offering anything to any of the witnesses.
(HCRR4: 106-07).
(124) Bankston was never informed that Gable wrote
a letter to Shipley telling her what to include in a letter

56a
she was going to write to the parole board. (HCRR4: 11:
2
(125) Bankston testified that had he known about the
letter Gable wrote to Shipley telling her what to include in the letter to the parole board, he would have
filed a motion for new trial. (HCRR4: 120).
(126) When shown the letter Shipley wrote to the parole board, Bankston deemed it a request for special
review and a recommendation for parole. (HCRR5: 4041).
(127) Bankston testified he was never given a copy of
the letter Shipley wrote to the parole board on Gable’s
behalf and that had he been given a copy of the letter
he would have filed a motion for new trial. (HCRR5:
41).
(128) Bankston cross-examined Gable about whether
the State had promised her anything because he suspected the State planned to write a parole letter for
her. (HCRR5: 42).
(129) Bankston testified that he has since learned
that Gable had a parole attorney at the time she testified in the trial of this case. (HCRR5: 49 .
(130) Defense Exhibit 168 reflects that Gable wrote a
letter to her parole attorney on August 18, 2010, two
days before she testified in this case, informing her parole attorney that Shipley was going to write a letter
to the parole board on her behalf for testifying in the
present case. (HCRR6: State’s Exhibit 168).

57a
(131) Bankston testified that he was never shown a
copy of a letter sent by Gable to the FBI in which she
stated she lied to Bankston about not knowing Applicant’s ex-fiance. (HCRR5: 55).
(132) Bankston testified that the first time Gable related that she saw a cut on Applicant’s lip the night of
the murder in this case was during the middle of trial
so he did not obtain the hospital records prior to trial
showing the injury happened later. (HCRR5: 57-58).
(133) Bankston decided not to elicit testimony from
Alicia Parker because he was concerned her testimony
would open the door to other damaging testimony.
(HCRR5: 55-57).
(134) Bankston decided not to elicit testimony that
Applicant’s father was in prison on the night of the
offense in this case because he was concerned that information would reflect poorly on Applicant. (HCRR5:
59-60).
(135) Bankston testified that he was never informed
that Shipley arranged a continuance in Osani’s case
and that fact was not discoverable because the motion
was not filed with the Court. (HCRR5: 75).
(136) Bankston was never informed that Osani’s
charge was reduced to a misdemeanor with credit for
time served after he testified at the Grand Jury in this
case. (HCRR5: 79-80).

58a
(137) Gable testified that her TDCJ paperwork, her
Harris County criminal paperwork and her correspondence to Shipley all reflect that her name is actually Delores Lee. (HCRR5: 95).
(138) Gable testified that she wrote a letter to Applicant’s writ counsel stating that Shipley had promised
to get her a special parole review and that Shipley instructed Gable to testify that she had not promised Gable anything. (HCRR5: 126). Gable continued that the
statement that she did not receive anything from Shipley was a lie. (HCRR5: 126).
(139) The record reflects that on April 2, 2013, Bankston filed a Motion for Judgment Nunc Pro Tunc seeking jail time credit for Applicant for the time he spent
in the Harris County Jail while on bond in Fort Bend
County from December 1, 2006 until November 2009.
The motion reflects that the reason Applicant’s bond
was not surrendered in the Fort Bend County case was
because the owner of the Bail Bond company on Applicant’s Fort Bend County bond had died and the company had gone out of business.
CONCLUSIONS OF LAW
(1) To prevail upon a post-conviction petition for a
writ of habeas corpus, an Applicant bears the burden
of proving, by a preponderance of the evidence, facts
that entitle him to relief. Ex parte Morrow, 952 S.W.2d
530, 534-35 (Tex. Crim. App. 1997).

59a
(2) In Brady v. Maryland, the United States Supreme
Court held that “the suppression by the prosecution of
evidence favorable to an accused . . . violates due process where the evidence is material either to guilt or to
punishment, irrespective of the good faith or bad faith
of the prosecution.” Brady v. Maryland, 373 U.S. 83, 87
(1963).
(3) A Brady violation occurs when a prosecutor fails
to disclose an understanding or agreement between a
witness and the State. Tassin v. Cain, 517 F.3d 770, 778
(5th Cir. 2008).
(4) The Court of Criminal Appeals has held that it is
“judicially imprudent to attempt to distinguish express
agreements between the State and a testifying accomplice from those agreements which are merely implied,
suggested, insinuated or inferred,” Duggan v. State,
778 S.W.2d 465, 468 (1989), citing Burkhalter v. State,
493 S.W.2d 214, 216-17 (Tex. Crim. App. 1973).
(5) The Court of Criminal Appeals has adopted the
standard set forth in Giglio v. United States, 405 U.S.
150 (1972), to determine whether an agreement exists
between a witness and the State. Burkhalter, 493
S.W.2d at 217, n.1.
(6) Under Giglio, it makes no difference whether the
understanding is “consummated by a wink, a nod and
a handshake, or by a signed and notarized formal document ceremoniously impressed with a wax seal. A
deal is a deal.” Duggan, 778 S.W.2d at 468.

60a
(7) A conviction procured through the use of false testimony is a denial of the due process guaranteed by the
Federal Constitution. Ex parte Ghahremani, 332
S.W.3d 470, 477 (Tex. Crim. App, 2011).
(8) The knowing use of false testimony violates due
process when there is a “reasonable likelihood” that
the false testimony affected the outcome. In other
words, the false testimony must have been material.
Ex parte Fierro, 934 S.W.2d 370, 373 (Tex. Crim. App.
1996).
(9) The “reasonable likelihood” standard is equivalent to the standard for constitutional error, which “requir[es] the beneficiary of a constitutional error to
prove beyond a reasonable doubt that the error complained of did not contribute to the verdict obtained.”
Id.
(10) A due-process violation may arise not only
through false testimony specifically elicited by the
State, but also by the State’s failure to correct testimony it knows to be false. Ex parte Ghahremani, 332
S.W.3d at 477. “It does not matter whether the prosecutor actually knows that the evidence is false; it is
enough that he or she should have recognized the misleading nature of the evidence.” Id., citing Duggan, 778
S.W.2d at 468.
(11) There is no requirement that the false testimony
be criminally perjurious. Rather, it is sufficient to establish a due process violation where the witness’s testimony gives the trier of fact a false impression. Id.,
citing Alcorta v. Texas, 355 U.S. 28, 31 (1957).

61a
(12) The duty of a prosecutor to correct known false
evidence is both ethically and constitutionally required. Duggan, 778 S.W.2d at 468; see also Mooney v.
Holohan, 294 U.S. 103 (1935).
(13) It does not matter whether the prosecutor actually knows that the evidence is false; it is enough that
he or she should have recognized the misleading nature of the evidence. Duggan, 778 S.W.2d at 468.
(14) The purpose in requiring a prosecutor to correct
false testimony is to insure a fair trial. Burkhalter, 493
S.W.2d at 218.
(15) The record reflects, and this Court concludes
that the State had, at the very least, understandings
with Gable, Paxton, and Osani, that they would benefit
from their cooperation in testifying in the instant case;
and that those understandings were not disclosed to
defense counsel or the jury. See Duggan, 778 S.W.2d at
468.
(16) Gable, Paxton and Osani all testified falsely that
they did not have an understanding with the State
that they would receive a benefit for their testimony
and by the State’s own admission, all three witnesses
were “critical” to the State’s case. See Ex parte
Ghahremani, 332 S.W.3d at 477.
(17) When Gable, Paxton and Osani testified falsely,
the prosecutor responsible for those witnesses did not
correct their false testimony. See Duggan, 778 S.W.2d
at 468; see also Mooney v. Holohan, 294 U.S. 103 (1935).

62a
(18) Gable, the only witness to testify that Applicant
confessed to the offense in this case, testified falsely
about her real name, her address at the time of the
murder in this case, who she was married to, that she
observed Applicant’s father at the scene on the night of
the murder in this case, that Applicant had a fresh
wound to his lip on the night of the offense, and that
she had cancer, which was the reason for testifying.
(19) This Court concludes that Applicant suffered a
Brady violation when the agreements with the State’s
witnesses in this case were not disclosed. See Tassin v.
Cain, 517 F.3d at 778.
(20) This Court concludes that the false testimony in
this case was material and that there is a reasonable
likelihood that that [sic] the false testimony in this
case affected the outcome. Ex parte Fierro, 934 S.W.2d
373.
(21) To prove a claim of ineffective assistance of counsel, an Applicant must show that his attorney’s performance was deficient and that as a result of that
performance, the outcome of his trial would have
been different. Strickland v. Washington, 466 U.S. 668
(1984).
(22) Applicant has not shown that the outcome of his
trial would have been different but for his counsel’s allegedly deficient performance. See Id.
(23) Applicant has not shown that his counsel’s performance was deficient in failing to insure he received
all of his pre-trial jail time credit because it was not

63a
the fault of counsel that the bail bondsman on Applicant’s bond died and therefore, the bond could not be
surrendered.4 See Id.
(24) Applicant has proven by a preponderance of the
evidence that he is entitled to habeas corpus relief on
his claim that the State suppressed evidence that witnesses received a benefit for their testimony. Ex parte
Morrow, 952 S.W.2d 530, 534-35 (Tex. Crim. App.
1997); Tassin v. Cain, 517 F.3d 770, 778 (5th Cir. 2008).
(25) Applicant is entitled to habeas corpus relief on
his claim that the State used false testimony to obtain
a conviction in this case. Ex parte Morrow, 952 S.W.2d
530, 534-35 (Tex. Crim. App. 1997); Ex parte
Ghahremani, 332 S.W.3d 470, 477 (Tex. Crim. App.
2011).
RECOMMENDATION
This Court recommends that Applicant be granted
habeas corpus relief with respect to the first and second claims included in his writ application.
The District Clerk shall immediately transmit to
the Court of Criminal Appeals these findings and conclusions as provided by law.

4

Applicant may still be entitled to pre-trial jail time credit
for the time he spent in the Harris County Jail awaiting trial in
this case should he make a claim for such. However, in the present case, Applicant’s claim is one of ineffective assistance of
counsel which this Court does not find meritorious.

64a
The Clerk shall send a copy of this is order to Applicant and the State of Texas.
Signed on this 7 day of November, 2016.
/s/ [Illegible]
Hon. James H. Shoemake
434th Judicial District Court
Fort Bend County, Texas

65a
No. 09-DCR-053051 HC1
EX PARTE
EDWARD GEORGE
MCGREGOR

§ IN THE 434TH JUDICIAL
§
DISTRICT COURT OF
§
§ FORT BEND COUNTY

SUPPLEMENTAL
FINDINGS OF FACT & CONCLUSIONS OF LAW
(Filed Jun. 27, 2017)
On April 26, 2017, the Court of Criminal Appeals
remanded this cause for Supplemental Findings of
Fact and Conclusions of Law. Pursuant to that Order,
the Court enters the following Supplemental Findings
of Fact and Conclusions of Law:
(1) In its Order, the Court of Criminal Appeals
stated, “The trial court’s original findings of fact,
conclusions of law, and recommendation were
entered without a determination of whether the
materiality standard is met. Therefore, additional findings of fact are necessary in order to
resolve the issue in this case.”
(2) However, in this Court’s original Findings of
Fact and Conclusions of Law, entered November
7, 2016, the trial court found and concluded the
following: “This Court concludes that the false
testimony in this case was material and that
there is a reasonable likelihood that the false
testimony in this case affected the outcome. Ex
parte Fierro, 934 S.W.2d at 373.”
(3) Nonetheless, pursuant to the order from the
Court of Criminal Appels, this Court further

66a
finds and concludes that the false testimony
from Delores Gable, Marvin Paxton, and Adam
Osani was material and should have been disclosed or corrected by the State.
(4) This Court finds and concludes further that
the fact that Delores Gable, Marvin Paxton, and
Adam Osani testified falsely was exculpatory.
(5) This Court finds and concludes further that
without the testimony of Delores Gable, Marvin
Paxton, and Adam Osani, Applicant would
likely not have been convicted in light of the remaining evidence presented by the State at
trial. This is especially true considering Prosecutor Strange’s testimony at the Habeas Corpus
hearing that the DNA evidence in this case was
insufficient to convict Applicant and so the State
relied on the testimony Gable, Osani and Paxton
(as detailed in this Court’s original findings of
fact and conclusions of law) (HCRR4: 16).
(6) This Court finds and concludes that had the
jury known that Delores Gable, Marvin Paxton,
and Adam Osani testified falsely, it would likely
not have convicted Applicant in light of the
remaining evidence presented by the State at
trial. Specifically, had the jury known that Gable
lied about the events of the night the alleged victim was killed, namely: that Applicant’s father
was present during an alleged confession when
he was not, that she was not married to Brian
Gable, did not live on the street where the victim
was killed, that Applicant did not have an injury
to his face on the night the victim in this case
was killed, that she was not testifying because

67a
she was dying of cancer, and that she did not
have an agreement to her benefit because of her
testimony, it likely would not have convicted Applicant.
(7) In its Order, the Court of Criminal Appeals
also directed this Court to make credibility findings regarding the witnesses that testified at
the Habeas Corpus hearing in this case. Pursuant to that order, this Court enters the following
supplemental findings of fact and conclusions of
law:
(8)

Sonia McGregor was a credible witness.

(9)

Doris Lee was a credible witness.

(10) Terrence Gaiser was a credible witness.
(11) Ryan Mitchell was a credible witness.
(12) Carvana Hicks Cloud was a credible witness.
(13) Robert Vernier was a credible witness.
(14) Jeff Strange was a credible witness.
(15) Don Bankston was a credible witness.
(16) The Court finds that although Elizabeth Shipley Exley believed herself to be a credible witness, in that she believed she did not have a duty
to disclose a potential bargain made with a testifying witness, her belief as to her duty to a [sic]
disclose potential bargain with a testifying witness is contrary to the current law of this State
and the United States Supreme Court.

68a
(17) The remaining witnesses were credible in
portions of their testimony and not credible in
other portions of their testimony.
SUPPLEMENTAL RECOMMENDATION
This Court again recommends that Applicant be
granted habeas corpus relief with respect to the first
and second claims included in his writ application.
The District Clerk shall immediately transmit to
the Court of Criminal Appeals these findings and conclusions as provided by law.
The Clerk shall send a copy of this order to Applicant and the State of Texas.
Signed on this 26 day of June, 2017.
/s/ [Illegible]
Hon. James H. Shoemake
434th Judicial District Court
Fort Bend County, Texas

69a
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
9/11/2019
MCGREGOR,
EDWARD GEORGE

COA No. 01-10-01085-CR
Tr. Ct. No. 09-DCR-053051
HC1WR-85,833-01

On this day, the Applicants’ motion for rehearing has
been denied.
Deana Williamson, Clerk

